CERTIFICATE OF SERVICE
No. 20Alvin Christopher Penn,
Petitioner

v.
United States,

Respondent.
I, J. Matthew Wright, do hereby certify that, on this 4th day of January,
2021, I caused one copy and an electronic copy of the petition for a writ of certiorari
in the foregoing case to be served electronically and by first class mail, postage
prepaid, on the following party:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
SupremeCtBriefs@USDOJ.gov
(202) 514-2217
/s/ J. Matthew Wright
J. MATTHEW WRIGHT*
FEDERAL PUBLIC
DEFENDER’S OFFICE
NORTHERN DISTRICT
OF TEXAS
500 South Taylor Street, Unit 110
Amarillo, TX 79101
(806) 324-2370
Matthew_Wright@fd.org

